IN THE
SUPREME COURT OF THE UNITED STATES
No. _____
ZANE DICKINSON,
Petitioner,
v.
DAVID SHINN, DIRECTOR; ATTORNEY GENERAL FOR THE STATE OF ARIZONA,
Respondents.

CERTIFICATE OF SERVICE
I, Molly A. Karlin, a member of the Supreme Court bar appointed to represent
petitioner pursuant to the Criminal Justice Act, 18 U.S.C. § 3006A, hereby certify
that I caused an original and two copies of the attached Application to Associate
Justice Elena Kagan for an Extension of Time Within Which to File a Petition for a
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit to be
filed with:
Clerk
Supreme Court of the United States
Washington, D.C. 20543
I further certify that one copy of the above-mentioned document was delivered
on August 30, 2021 to the United States Postal Service for service by first-class mail
on:
JILLIAN B. FRANCIS
Assistant Attorney General
Arizona Attorney General’s Office
2005 N. Central Avenue
Phoenix, Arizona 85004-2926
(602) 542-5025
Counsel for Respondents

I further certify that all parties required to be served have been served.

/s/Molly A. Karlin
MOLLY A. KARLIN
Assistant Federal Public Defender
Counsel of Record
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
(602) 382-2700

2

